IN THE SUPREME COURT OF THE UNITED STATES

CONOLY FREDDIE FRANKLIN III,
Petitioner,
-Vs-
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 18, United States Code, ยง 3006A and Rule 89 of this Court, Petitioner,
Conoly Freddie Franklin III, asks leave to file the attached Petition for Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit without pre-payment of fees or costs
and to proceed in forma pauperis.

Petitioner is represented by counsel appointed pursuant to the Criminal Justice Act
of 1964, Title 18, United States Code, ยง 3006A. Petitioner was found to be indigent in the
district court and has had appointed counsel in the district court and before the Ninth

Circuit.

  

ZUGMAN
Burcham & Zugman

402 W. Broadway, Suite 1130
San Diego, CA 92101

(619) 699-5931

Counsel for Petitioner
Conoly Freddie Franklin IL

 

Dated: August 31, 2021
